           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:    INFORMATION: Audit Announcement—Air                     Date:    May 19, 2005
            Carriers’ Outsourcing of Aircraft Maintenance
            Federal Aviation Administration
            Project No. 05A3001A000
                                                                  Reply to
  From:     David A. Dobbs                                        Attn of:   JA-10
            Assistant Inspector General
             for Aviation and Special Program Audits

    To:     Ramesh K. Punwani
            Assistant Administrator for
             Financial Services/CFO


            In efforts to reduce maintenance costs, many airlines are increasing the amount
            of total maintenance that is performed by outside maintenance providers. In
            fact, major air carriers now outsource an average of 53 percent of their
            maintenance expense, as compared to 37 percent in 1996. Although air
            carriers are required to report maintenance expenditures on Department of
            Transportation Form 41, that information lacks specificity about exactly how
            much and what types of maintenance work are being outsourced by the
            carriers.

            Congressman James Oberstar, Ranking Democratic Member, Committee on
            Transportation and Infrastructure, and Congressman Peter DeFazio, in his
            capacity as then-Ranking Democratic Member, Subcommittee on Aviation,
            requested that we perform an independent analysis of the type (e.g., heavy
            airframe maintenance) and quantity of maintenance being shifted to
            certificated repair stations. They also expressed continuing concern that FAA
            might not be well positioned to effectively carry out the responsibility of
            monitoring this segment of the maintenance workforce.

            Accordingly, the Office of Inspector General plans to conduct an audit of air
            carriers’ outsourcing of aircraft maintenance. The objectives of our audit will
            be to determine:
                                                                             2


    ! the type and quantity of maintenance performed by outside repair
      stations, and
    ! whether FAA is effectively monitoring air carriers’ oversight of the
      work performed by outside repair stations and verifying that safety
      requirements are met.

Our audit will include visits to FAA Headquarters and FAA offices responsible
for oversight of air carrier maintenance programs and of work performed at
aircraft repair stations. We will contact your audit liaison to schedule an
entrance conference. If you have any questions or need additional information,
please contact Lou E. Dixon, Program Director, at (404) 562-3770 or
Robin P. Koch, Project Manager, at (404) 562-3776.


                                     #


cc: FAA Chief of Staff
    Anthony Williams, ABU-100
    Martin Gertel, M-1
